No:
IN THE
SUPREME COURT OF THE UNITED STATES
OCTOBER TERM, 2021
DWYNE DERUISE,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
CERTIFICATE OF SERVICE
I certify that on this 7th day of January, 2021, in accordance with SUP. CT. R.
29, copies of the (1) Petition for Writ of Certiorari, (2) Motion for Leave to Proceed In
Forma Pauperis, (3) Certificate of Service, and (4) Declaration Verifying Timely
Filing, were served by third party commercial carrier for delivery within three days
upon the United States Attorney for the Southern District of Florida, 99 N.E. 4th
Street, Miami, Florida 33132-2111, and upon the Solicitor General of the United
States, Room 5614, Department of Justice, 950 Pennsylvania Avenue, N.W.,
Washington, D.C. 20530-0001.
MICHAEL CARUSO
FEDERAL PUBLIC DEFENDER
West Palm Beach, Florida
January 7, 2021

By:

s/ Peter Birch
Peter Birch
Assistant Federal Public Defender
450 S. Australian Ave., Suite 500
West Palm Beach, FL 33401
(561) 833-6288

